Office of the Inspector General
Jump
to content
Social Security Online
Office
of the Inspector General
www.socialsecurity.gov
Home
Questions?
How to Contact Us
Search
Español
OIG
Home
Audit Report - A-01-96-62001
Office of Audit
Review of the Social Security
Administration Procedures to Ensure State Compliance with Section 1616(e)
of the Social Security Act - A-01-96-62001 - 3/31/97
This report presents the results of our review of the Social
Security Administration (SSA) procedures to ensure State compliance with
section 1616(e) of the Social Security Act. Section 1616(e) requires each
State to certify annually to the Commissioner of Social Security that
it is in compliance. Accordingly, the objective of our review was to determine
whether SSA could rely on the compliance statements made by States. To
meet our objective, we reviewed the Commonwealth of Massachusetts to determine
if the State: (1) has established and enforces health and safety standards
for institutions, foster homes, and group living arrangements in which
a significant number of Supplemental Security Income (SSI) recipients
reside; and (2) reports identified shortcomings to SSA and takes corrective
actions timely.
SSA has established a reporting system whereby it tracks
whether States certify compliance with section 1616(e). Follow-up letters
are sent to those States that do not comply with the certification requirement.
SSA currently has certifications on file for all States. Our review of
the licensing process in Massachusetts showed that, through its licensing
authorities, Massachusetts has generally established and enforces health
and safety standards for various types of facilities that are required
to be reviewed for licensing under the provisions of the Social Security
Act. However, the Executive Office of Health and Human Services (EOHHS),
responsible for overseeing the administration of the licensure programs
in Massachusetts, had not established procedures to ensure that all facilities,
required to meet State standards, were identified. While our tests of
facilities included in our statistically selected sample did not identify
any facilities which have not been properly licensed, EOHHS has no assurance
that all facilities in which three or more SSI recipients reside are identified.
EOHHS does not use information contained in SSA`s State Data Exchange
(SDX) file, which is particularly suited for use in identifying potential
candidates for licensing. More significantly, however, SSA relies on the
State`s certification and was not aware that the State system may
not identify all potential facilities.
EOHHS does not have a system for maintaining records of
information concerning enforcement proceedings and where applicable, waivers
of standards and violations of standards by specific facilities. Accordingly,
EOHHS officials were not aware that State licensing officials revoked
three facilities` licenses between October 1, 1994 and September 30,
1996 due to noncompliance with State standards. SSA`s records indicate
that five SSI recipients reside in two of the three facilities. In addition,
the State has cited a fourth facility for deficiencies that seriously
limit the capacity to provide care and anticipates revoking the facilities`
license. SSA`s records indicate that 13 SSI recipients reside in this
facility. Without a system for maintaining records, EOHHS cannot determine
whether the various Departments within the State, which issue licenses,
have revoked licenses or notify SSA when licenses are revoked due to noncompliance
with State standards.
We are recommending that SSA:
1. periodically review attestations made by States in
their certifications of compliance. These reviews would ensure that
States identify all facilities required to be reviewed for licensing
under section 1616(e) of the Social Security Act.
2. inform States of the requirements of the law, and establish
procedures to ensure that States notify SSA when licenses are revoked
due to noncompliance with State standards or expire and are not renewed
in a timely manner.
In response to our draft report, we received comments from
SSA and from EOHHS. In its comments to our report, SSA stated it will
correspond with all States to highlight the problems our audit identified
and encourage States to report to SSA when group residential facilities
lose their licenses to operate. In EOHHS` comments, the Secretary
stated that he has directed all EOHHS agencies to notify SSA, EOHHS, and
each other whenever an agency revokes the license of a residential facility.
While both agencies` comments proposed actions to address
our second recommendation, SSA did not address our first recommendation.
We continue to believe that SSA should periodically review attestations
made by States in their certifications of compliance to ensure that States
identify all facilities required to be reviewed for licensing.
Back to top
BACKGROUND
In recent years, considerable attention has been given to
the conditions afforded to individuals living in residential settings
that provide some degree of care or protective oversight. Ordinarily,
residents of such facilities are aged, disabled, or mentally impaired
and quite often, are eligible to receive benefits provided under the SSI
program. The Congress passed section 1616(e) of the Social Security Act
to protect SSI recipients who live in specified residential facilities
from being subjected to unsatisfactory conditions.
Under section 1616(e) of the Social Security Act, States
are required to establish or designate one or more State or local authorities
that must establish, maintain and ensure the enforcement of standards
for any category of institution, foster home, or group living arrangement
in which (as determined by the State) a significant number of SSI recipients
are residing or are likely to reside. Standards shall be appropriate to
the needs of the recipient and the character of the facilities involved
and shall govern such matters as admission policies, safety, sanitation,
and protection of civil rights. Further, each State is required to maintain
records of information concerning standards, procedures available to ensure
enforcement of the standards, and a list of waivers of standards and violations
of standards by specific facilities. These records must be made available
annually to the public.
To ensure compliance with the requirements of section 1616
(e) of the Social Security Act, each State must certify annually to SSA`s
Office of the Commissioner that designated licensing authorities have
implemented all aspects of the program. In Massachusetts, EOHHS has been
designated to implement the provisions of the Social Security Act for
certifying to SSA that effective standards and enforcement procedures
have been established. In turn, EOHHS delegates to Departments within
the State the actual licensing of the various categories of facilities.
These include the Massachusetts Departments of Health, Mental Retardation,
Public Health, and the Office for Children.
The Social Security Act does not provide for Federal financial
participation in a State`s cost to administer the licensing. It does
provide for a reduced SSI payment to recipients who continue to reside
in facilities that do not meet the appropriate State or local standards.
Back to top
SCOPE OF REVIEW
Our audit was conducted in accordance with generally accepted
government auditing standards. Section 1616(e) requires each State to
certify annually to the Commissioner of Social Security that it is in
compliance. Accordingly, the objective of our review was to determine
whether SSA could rely on the compliance statements made by States. We
reviewed the Commonwealth of Massachusetts to determine if the State:
(1) has established and enforces health and safety standards for institutions,
foster homes, and group living arrangements in which a significant number
of SSI recipients reside; and (2) reports identified shortcomings to SSA
and takes corrective actions timely.
To meet our objectives, we:
- reviewed applicable Federal laws, regulations, and program
guidelines;
- reviewed the Commonwealth of Massachusetts Single Audit
Report for the State Fiscal Year ended June 30, 1995;
- reviewed the organizational structure of applicable
State Departments and Offices;
- reviewed SSA`s procedures designed to ensure that
States are in compliance with the Social Security Act;
- reviewed State regulations for licensing various types
of facilities that are required to be reviewed for licensing under the
Social Security Act;
- conducted site inspections at 20 judgementally selected
residential facilities licensed by the State to determine whether State
licensing officials had followed State standards;
- reviewed State procedures for identifying residential
facilities that should be licensed under the requirements of the Social
Security Act and for reporting to SSA the names and addresses of any
facilities which no longer meet State standards;
- determined whether the State revoked any licenses due
to noncompliance with State standards during the period October 1, 1994
to September 30, 1996 and whether the State, as of October 10, 1996,
anticipated revoking any licenses due to noncompliance with State standards;
- reviewed SSA`s SDX file and Representative Payee
Accounting System file to determine the number of SSI recipients in
those facilities in which the State had revoked or anticipated revoking
licenses;
- selected a random sample of 150 residential facilities
which were not licensed by the State, but according to SSA`s records,
6 or more SSI recipients reside; and
- issued a questionnaire to the 150 selected facilities
to determine whether each facility provides protective oversight to
the residents and should be licensed by the State in accordance with
section 1616(e) of the Social Security Act.
We reviewed those internal control procedures necessary
to meet our audit objectives. The significant procedures performed by
SSA were related to obtaining certifications of compliance with the Social
Security Act. The significant procedures performed by State personnel
were related to ensuring that all residential facilities that were identified
as subject to the requirements of the Social Security Act were licensed
in accordance with State licensing standards. We reviewed each of the
significant areas identified for compliance with applicable laws and regulations.
Except as noted in the RESULTS OF REVIEW section of this report, we found
no instances of noncompliance. We conducted our audit between March 1996
and October 1996 at the State Departments and offices located in Boston,
Massachusetts and at licensed residential facilities located throughout
the State. We also held teleconferences with SSA officials located in
Baltimore, Maryland.
Back to top
RESULTS OF REVIEW
SSA has established a reporting system whereby it tracks
whether States certify compliance with section 1616(e) of the Social Security
Act. Follow-up letters are sent to those States that do not comply with
the certification requirement. SSA currently has certifications on file
for all States. However, SSA is not required by law to verify the State`s
compliance statements to ensure that they are true.
The licensing process in Massachusetts showed that, through
its licensing authorities, Massachusetts has generally established and
enforces health and safety standards for various types of facilities that
are required to be reviewed for licensing under the provisions of the
Social Security Act. However, EOHHS, responsible for overseeing the administration
of the licensure programs in Massachusetts, has not established procedures
to ensure that all facilities, required to meet State standards, were
identified. While our tests of facilities included in our statistically
selected sample did not identify any facilities which have not been properly
licensed, EOHHS has no assurance that all facilities in which three or
more SSI recipients reside are identified. EOHHS does not use information
contained in SSA`s SDX file, which is particularly suited for use
in identifying potential candidates for licensing. More significantly,
however, SSA relies on the State`s certification and was not aware
that the State system could not identify all potential facilities.
We extracted from SSA`s SDX file all addresses in which
three or more SSI recipients resided. From this listing, we eliminated
duplicate records of addresses and records of addresses for facilities
which had been licensed. From the remaining file of 5,669 records, we
selected records where at least 6 SSI recipients were residing. The selection
of six or more SSI recipients at the same address was used to eliminate
living arrangements in which several family members shared the same apartment
and small apartment units. From the resulting 1,618 record addresses,
we selected a sample of 150 addresses for review and found that none of
the selected facilities should have been licensed.
EOHHS does not have a system for maintaining records of
information concerning enforcement proceedings and where applicable, waivers
of standards and violations of standards by specific facilities. In accordance
with the Social Security Act, States must maintain such records and provide
them to SSA. EOHHS was not aware of this requirement. Accordingly, EOHHS
officials were not aware that State licensing officials revoked three
facilities` licenses between October 1, 1994 and September 30, 1996
due to noncompliance with State standards. SSA`s records indicate
that five SSI recipients reside in two of the three facilities. In addition,
the State has cited a fourth facility for deficiencies that seriously
limit the capacity to provide care and anticipates revoking this facility`s
license. SSA`s records indicate that 13 SSI recipients reside in this
facility. Because EOHHS does not maintain information concerning enforcement
proceedings, it cannot determine whether the various Departments within
the State, which issue licenses, have revoked licenses. Further, it cannot
notify SSA when licenses are revoked due to noncompliance with State standards.
In turn, SSA cannot ensure that SSI recipients, many of
whom are elderly, disabled, or mentally impaired, are provided the quality
of care in residential settings prescribed by State standards.
Back to top
RECOMMENDATIONS
We are recommending that SSA:
1. periodically review attestations made by States in
their certifications of compliance. These reviews would ensure that
States identify all facilities required to be reviewed for licensing
under section 1616(e) of the Social Security Act.
2. inform States of the requirements of the law, and establish
procedures to ensure that States notify SSA when licenses are revoked
due to noncompliance with State standards or expire and are not renewed
in a timely manner.
AUDITEE COMMENTS
In response to our draft report, we received comments from
SSA and from EOHHS. In it`s comments to our report, SSA stated that
it will correspond with all States to highlight the problems our audit
identified. In addition, SSA will emphasize with the States the manner
in which they can use the SDX files that SSA shares with all States to
identify group homes that may not be licensed. Also, SSA will encourage
States to report to SSA when group residential facilities lose their licenses
to operate.
In EOHHS` comments, the Secretary stated that he has
directed all EOHHS agencies to notify SSA, EOHHS, and each other whenever
an agency revokes the license of a residential facility. In addition,
EOHHS officials will also contact SSA to obtain access to SSA`s SDX
files which identify residential facilities with three or more SSI recipients
since SSA`s data base will provide an additional safeguard to assure
continued compliance with section 1616(e) of the Social Security Act.
OIG RESPONSE TO AUDITEE COMMENTS
While both agencies` comments addressed our second recommendation,
SSA did not address our first recommendation. We continue to believe that
SSA should periodically review attestations made by States in their certifications
of compliance. This review will ensure that States identify all facilities
required to be reviewed for licensing under section 1616(e) of the Social
Security Act.
David C. Williams
Back to top
APPENDICES
APPENDIX C
MAJOR CONTRIBUTORS TO THIS REPORT
Office of the Inspector General
Roger Normand, Director, Program Audits
Rona Rustigian, Acting Team Leader
Steven Kurker, Auditor-in-Charge
David Mazzola, Auditor
Privacy Policy
| Accessibility Policy | Linking
Policy | Site Map